AUDIT OF THE FEDERAL BUREAU OF 

 PRISONS’ EFFORTS TO IMPROVE 

ACQUISITION THROUGH STRATEGIC 

           SOURCING


       U.S. Department of Justice 

     Office of the Inspector General 

              Audit Division 


           Audit Report 14-17 

              March 2014

    AUDIT OF THE FEDERAL BUREAU OF PRISONS’ EFFORTS TO

    IMPROVE ACQUISITION THROUGH STRATEGIC SOURCING 


                                  EXECUTIVE SUMMARY


       Strategic sourcing is the process of acquiring goods and services more
efficiently by leveraging the government’s buying power, streamlining contracting,
and using other agencies’ existing contracts instead of issuing new contracts. In
2005, the Office of Management and Budget (OMB) directed the government-wide
use of strategic sourcing to control costs, and the General Services Administration
(GSA) created the Federal Strategic Sourcing Initiative. That initiative established
pools of blanket purchase agreements for selected commodities in an effort to
eliminate duplication of contracting efforts across agencies.1 In 2009, OMB
required federal agencies to review existing acquisition practices and develop a plan
to save 7 percent of contract spending by the end of FY 2011, and it specifically
identified strategic sourcing as a savings method. In December 2012, OMB issued
a memorandum establishing a strategic sourcing initiative in an effort to ensure
that all agencies manage their acquisitions effectively and in cooperation with other
agencies when possible.

      This audit report assesses the Federal Bureau of Prisons’ (BOP) efforts to
improve acquisition through strategic sourcing. Our audit objectives were to:
(1) assess the BOP’s efforts to implement the Federal Strategic Sourcing Initiative
and other strategic sourcing activities; and (2) determine whether these efforts
have reduced the BOP’s costs. The audit concentrated on, but was not limited to,
the period from October 1, 2010, through March 31, 2013, during which time the
BOP awarded almost $9 billion in contracts to provide for the custody and care of
federal prisoners.

       We found that while the BOP had established national contracts and blanket
purchase agreements to help reduce costs and achieve the goals of strategic
sourcing, it had not established a program to implement and oversee the Federal
Strategic Sourcing Initiative or other strategic sourcing activities. We also found
that procurement personnel at BOP institutions were uncertain about whether the
use of the national contracts and blanket purchase agreements was mandatory or
optional.

       In addition, the BOP had not established a consistent process for identifying
and reporting cost savings achieved by using the national contracts, blanket
purchase agreements, and other cost-savings initiatives. As a result, although BOP
institutions reported that participation in such initiatives resulted in saving $1.3
million from October 1, 2010, through March 31, 2013, it is unclear how this
amount was calculated. Moreover, we believe that the BOP could achieve



        1
           A blanket purchase agreement is a simplified method of filling anticipated repetitive needs
for supplies or services by establishing “charge accounts” with qualified sources of supply.


                                                   i
significantly greater cost savings by implementing a formal strategic sourcing
program.

        Based on the audit results, we recommend that the BOP implement a
strategic sourcing program to: (1) continuously analyze its spending to identify and
prioritize commodities with the greatest potential for cost savings; (2) identify
appropriate benchmark prices for those items; (3) determine whether those
commodities can be obtained at a lower cost by participating in existing contracts
before initiating new contracts; and (4) collect data and report savings using
appropriate “cost per” units of measurement. We also recommend that the BOP
identify and communicate to BOP procurement staff when they must use existing
contracts and initiatives and the circumstances under which they may procure the
commodities through other sources, and that it include in its internal review process
steps to verify whether BOP procurement offices are using strategic sourcing
concepts in the acquisition of goods and services.




                                         ii
    AUDIT OF THE FEDERAL BUREAU OF PRISONS’ EFFORTS TO

    IMPROVE ACQUISITION THROUGH STRATEGIC SOURCING 


                                    TABLE OF CONTENTS 




INTRODUCTION ....................................................................................... 1


         Audit Objectives and Scope ................................................................ 2 


FINDING AND RECOMMENDATIONS ......................................................... 3


         The Federal Strategic Sourcing Initiative .............................................. 3 


         Strategic Sourcing in the Department of Justice .................................... 4 


         Strategic Sourcing in the Bureau of Prisons .......................................... 5 


               BOP Participation in GSA’s Federal Strategic Sourcing Initiative

                 and Department Cost-Savings Initiatives ................................... 5 


               BOP National Contracts and Other BOP Cost-Savings

                 Initiatives ............................................................................. 7 


         Measuring and Reporting Participation In and Cost Savings From

           Strategic Sourcing ...................................................................... 11 


         The BOP’s Program Review Process ................................................... 13 


         Conclusion..................................................................................... 14 


         Recommendations .......................................................................... 14 


STATEMENT ON INTERNAL CONTROLS................................................16


STATEMENT ON COMPLIANCE WITH LAWS AND REGULATIONS .............. 17


APPENDIX I – AUDIT OBJECTIVES, SCOPE, AND METHODOLOGY ............ 18


APPENDIX II – BOP RESPONSE TO THE DRAFT AUDIT REPORT............... 19


APPENDIX III – OFFICE OF THE INSPECTOR GENERAL ANALYSIS

               AND SUMMARY OF ACTIONS NECESSARY 

               TO CLOSE THE REPORT ................................................ 21

This page intentionally left blank.
    AUDIT OF THE FEDERAL BUREAU OF PRISONS’ EFFORTS TO

    IMPROVE ACQUISITION THROUGH STRATEGIC SOURCING 


                                       INTRODUCTION 



       The Federal Bureau of Prisons (BOP) provides custody and care of federal
prisoners. As of December 9, 2013, the BOP housed 175,435 prisoners in 119 BOP
institutions.2 To care for these prisoners, the BOP contracts with vendors for food,
clothing, health care, and social rehabilitation services. BOP procurement
operations are conducted by 93 local procurement offices responsible for
purchasing and contracting activities in the 119 institutions.3 According to the
Federal Procurement Data System, from October 1, 2010, through March 31, 2013,
the BOP’s central procurement office, regional offices, and facilities awarded
approximately $9 billion in contracts.4

       Procurement in the BOP is largely de-centralized. Local procurement offices
serve one or more institutions located in close proximity and for which the BOP
consolidates support services such as procurement. Contracting Officers in the
local procurement offices have delegated procurement authority of up to $100,000.
The local offices are also authorized to issue task orders and delivery orders,
against established blanket purchase agreements, over the $100,000 threshold.5
The Field Acquisition Office in Grand Prairie, Texas, is responsible for awarding
contracts for more than $100,000. Staff at the institutions administer the larger
contracts awarded by the Field Acquisition Office. The National Acquisitions and
Support Section of the Procurement Executive’s Office along with the Field
Acquisition Office establish national contracts and blanket purchase agreements.6




        2
           The BOP also housed 42,427 prisoners in privately managed and contract facilities, but
these facilities were not part of our review.
        3
           Some BOP locations incorporate more than one BOP institution. For instance, the BOP has
three facilities at its Allenwood, Pennsylvania, location – minimum security and medium security
Federal Correction Institutions and a high security United States Penitentiary.
        4
          The $9 million includes costs for contracted facilities. The Federal Procurement Data System
does not provide adequate detail to separate costs for BOP operated institutions from privately
managed and contract facilities.
        5
           A blanket purchase agreement is a simplified method of filling anticipated repetitive needs
for supplies or services by establishing “charge accounts” with qualified sources of supply.
        6
          The BOP’s National Acquisitions and Support Section notifies local procurement offices when
national contracts and blanket purchase agreements are available for use.


                                                   1

Audit Objectives and Scope

      The objectives of our audit were to: (1) assess the BOP’s efforts to
implement strategic sourcing and the Federal Strategic Sourcing Initiative; and
(2) determine whether these efforts have reduced the BOP’s costs. The audit
concentrated on, but was not limited to, the period from October 1, 2010, through
March 31, 2013.

        To determine the status of participation in the Federal Strategic Sourcing
Initiative and BOP national contracts for BOP institutions, we surveyed all 93 local
procurement offices and received a response from each office. We used a survey
questionnaire to assess participation in national contracts and blanket purchase
agreements. The questionnaire also assessed whether procurement staff
considered participation in such contracts and agreements to be mandatory or
optional.

       Appendix I contains a more detailed description of our audit objectives,
scope, and methodology. The results of our audit work and testing are reported in
the Finding and Recommendations section of the report.




                                          2

                    FINDING AND RECOMMENDATIONS


       The BOP has not fully adopted a strategic sourcing approach to
       procurement. Its purchasing is largely de-centralized with institutions
       making procurement decisions locally. The BOP has established
       national contracts and blanket purchase agreements, participates in
       other GSA and Department of Justice cost-savings initiatives, and
       encourages the institutions to use the national contracts and blanket
       purchase agreements, but it typically does not make the use of these
       cost-savings efforts mandatory. Also, the BOP does not track
       participation in the national contracts and other cost-savings
       initiatives, nor does it require documentation of cost savings achieved
       through participation in such programs. As a result, the BOP is not
       fully leveraging its buying power to reduce procurement costs.

The Federal Strategic Sourcing Initiative

       In 2005, the Office of Management and Budget (OMB) directed federal
agencies to develop and implement strategic sourcing to help control spending.7
When OMB addresses requirements to “agencies,” those requirements apply at the
department level rather than at the component level. OMB defined strategic
sourcing as the “collaborative and structured process of critically analyzing an
organization’s spending and using this information to make business decisions
about acquiring commodities and services more effectively and efficiently.” OMB
intended the process to help agencies optimize performance, minimize price,
increase achievement of socio-economic acquisition goals, evaluate total life cycle
management costs, improve vendor access to business opportunities, and
otherwise increase the value of dollars spent. OMB directed agencies to analyze
their spending and identify at least three commodities that could be purchased
more effectively and efficiently through strategic sourcing.

       OMB also required agencies to develop a strategic sourcing plan including
annual goals and objectives, performance measures, and reporting requirements
for monitoring the agency-wide program. OMB tasked agencies with developing
methodologies for establishing baseline data and subsequent changes to the
baseline for use throughout the strategic sourcing process.

        In response to the 2005 OMB requirement, the General Services
Administration (GSA) established the government-wide Federal Strategic Sourcing
Initiative. Through the initiative, GSA encouraged agencies to aggregate their
spending requirements, streamline procurement processes, and coordinate
purchases of like products and services. The initiative provided strategic sourcing
solutions for purchases of: (1) office supplies, (2) express and ground domestic
delivery services, (3) print management, and (4) wireless services.

       7
         Office of Management and Budget Memorandum, Implementing Strategic Sourcing
(May 20, 2005).


                                             3

       In July 2009, OMB required agencies to develop a plan to save 7 percent of
baseline contract spending by the end of FY 2011 and established a goal to save
$40 billion a year through better acquisition and acquisition-related program
practices across the government.8 OMB encouraged agencies to develop more
strategic acquisition methods and increase participation in government-wide
strategic acquisition initiatives, including strategic sourcing initiatives.

        In December 2012, OMB established a new management improvement goal
calling for the implementation of five new government-wide strategic sourcing
solutions in FYs 2013 and 2014.9 OMB encouraged agencies to save taxpayer
dollars through smarter acquisition processes such as centralizing contracting
decisions or using government-wide strategic sourcing contracts. OMB expected
such contracts to result in lower prices and reduce administrative costs. OMB also
established a strategic sourcing initiative intended to ensure that all agencies
“manage their acquisitions effectively and that, wherever possible, agencies join
together to negotiate the best deal for the taxpayer.” To facilitate this effort, OMB
initiated a Strategic Sourcing Leadership Council and required agencies to designate
a Strategic Sourcing Accountable Official. That official was to have “authority to
coordinate the agency's internal strategic sourcing activities and its participation in
government-wide efforts.”

Strategic Sourcing in the Department of Justice

       The Justice Management Division (JMD) is responsible for implementing
strategic sourcing policy within the Department of Justice (DOJ or Department).
The DOJ’s Senior Procurement Executive told us that the Department does not have
a mandatory strategic sourcing program and does not require Department
components to participate in existing contracts because the products or services
may not meet the needs of all users within the Department. As an example, the
Senior Procurement Executive told us that the stab-resistant personal protection
equipment needed by BOP personnel is different from personal protection
equipment needed by other law enforcement agencies, as BOP Correctional Officers
face the risk of being stabbed while personnel in other agencies face the more
common risk of being shot. The Senior Procurement Executive also told us that
requiring agencies to use existing contracts or agreements may not result in a
savings to the taxpayer. For example, instead of using the existing Federal
Strategic Sourcing Initiative contract for express domestic delivery services, the
Department negotiated a contract with another service provider that the Senior
Procurement Executive said resulted in greater savings for the Department and
better met Department requirements.

      According to the Senior Procurement Executive, JMD’s focus has been on
implementing OMB Office of Federal Procurement Policy initiatives, although he said


      8
          Office of Management and Budget Memorandum M-09-25.
      9
          Office of Management and Budget Memorandum M-13-02.


                                             4

that the Department encourages participation in blanket purchase agreements
derived from the Federal Supply Schedules and participation in Federal Strategic
Sourcing Initiatives when suitable.

Strategic Sourcing in the Bureau of Prisons

       Like the Department, the BOP does not have a formal strategic sourcing
program. However, the BOP Procurement Executive described a culture of strategic
sourcing within the bureau. The Procurement Executive’s Office notifies institutions
of new Federal Strategic Sourcing Initiative solutions and Department strategic
sourcing or cost-savings initiatives. The BOP Procurement Executive’s Office
publishes notices to the field offices when new initiatives become available and
posts the information about these initiatives on its Intranet site. These field notices
introduce the cost-savings initiative, provide guidance on placing orders against the
contract, and inform the procurement officials when use of the contract is required.

BOP Participation in GSA’s Federal Strategic Sourcing Initiative and Department
Cost-Savings Initiatives

      GSA Federal Strategic Sourcing Initiatives

       In July 2011, the BOP issued a memorandum implementing DOJ’s
Procurement Guidance Memorandum 11-05, regarding the Department’s policy on
the use of Federal Strategic Sourcing Initiative blanket purchase agreements for
office supplies. The BOP memorandum made it mandatory that BOP institutions
use the GSA blanket purchase agreements as their primary sources for office
supplies. The memorandum permitted institutions to use other sources when
participating vendors did not or could not supply the items, or when participating
vendors could not offer the lowest price.

       In October 2012, the BOP announced the availability of the GSA’s Federal
Strategic Sourcing Initiative Domestic Delivery Service program for shipping inmate
property. The notice identified the GSA blanket purchase agreement but did not
require the institutions to use the agreement.

      Department of Justice Cost-Savings Initiatives

        In September 2010, the BOP issued Acquisition Guidance Document 10-010,
regarding implementation of DOJ’s policy for the acquisition, use, and maintenance
of copiers and printers. The BOP obtained a waiver regarding stand-alone printer
requirements, but required BOP institutions to implement the Department policy for
acquisition and maintenance of copiers after the expiration of any existing
contracts. Procurement offices were required to report quarterly savings derived
through the use of DOJ equipment contracts. Based on our assessment of the
institutions’ responses to our survey, it appears that the mandate for use of this
initiative took precedence over the optional use of the Federal Strategic Sourcing
Initiative for print management.




                                          5

        In December 2012, the BOP issued a memorandum requiring institutions to
begin using an existing Federal Bureau of Investigation (FBI) contract for wireless
voice and data services. The memorandum stated that all institutions were
required to use this contract unless the new service provider could not provide the
needed services or their current service provider charged a cancellation fee for
early termination of the existing contract. If the current service provider charged a
contract cancellation fee, the institutions could wait until that contract expired
before transferring the services to the FBI contract. Based on our assessment of
the institutions’ responses to our survey, it appears that required use of the FBI
contract took precedence over the optional use of the Federal Strategic Sourcing
Initiative for wireless service.

        OIG Survey of BOP’s Participation in Federal Strategic Sourcing Initiatives
        and Department Cost-Savings Initiatives

        We surveyed the 93 local procurement offices to identify the level of
participation in the Federal Strategic Sourcing Initiative and Department initiatives
for office supplies, domestic delivery services, print management, wireless services,
and copier and multi-function printer devices. The results of our survey are shown
in Exhibit 1.

              Exhibit 1: BOP Participation in Federal Strategic Sourcing 

             Initiative (FSSI) solutions and Other Department Initiatives 

                                                             BOP Institutions10
                                                                                          Did not
                                                          Used this                       procure
                                           Used this      initiative     Used other          the
                                           initiative     and other       sources        product or
                Initiatives               exclusively      sources       exclusively      service
    FSSI for Office Supplies               19 (20%)       67 (72%)         6 (6%)          1 (1%)
    FSSI for Domestic Delivery             80 (86%)         5 (5%)         5 (5%)          3 (3%)
    FSSI for Print Management or
    DOJ Initiative for Copiers and
    Multi-function Printer Devices     68 (73%)      12 (13%)              10 (11%)        3 (3%)
    FSSI for Wireless Telecom or FBI
    Blanket Purchase Agreement for
    Wireless Services                  82 (88%)        1 (1%)              9 (10%)         1 (1%)
   Source: BOP responses to the OIG survey questionnaire

       Our survey found that institutions did not always use these initiatives to
procure products and services. Where institutions “used other sources exclusively,”
procurement staff indicated they did not use these initiatives because the
institution: (1) already had an existing contract for the products or services,11
(2) used a different mandatory source of supply, (3) had negotiated a better price


        10
             Percentages may not total 100 percent due to rounding.
        11
           While some initiatives mandated that the institutions cancel existing contracts, providing
that there was no cancellation penalty, most initiatives allowed the institutions to continue the use of
current contracts through expiration.


                                                    6

through another source, or (4) could not obtain the product or services in their
area. We consider these valid reasons for using other sources of supply.

BOP National Contracts and Other BOP Cost-Savings Initiatives

       Although the BOP does not have a written strategic sourcing plan, it has
taken steps to consolidate purchases and begin leveraging the government’s buying
power. These actions are intended to allow the BOP to negotiate better pricing by
participating in agency-wide and government-wide contracts and blanket purchase
agreements.

      BOP’s Centralized Efforts to Identify Opportunities for Cost Savings

       The Procurement Executive told us that the BOP had not conducted a
comprehensive spend analysis to identify areas where multiple suppliers are
providing similar goods and services, and where leveraging the BOP’s buying power
would be most beneficial. However, the Procurement Executive said that the BOP
routinely conducts market research to identify opportunities for costs savings.
Based on that research, the Procurement Executive’s Office has established
nationwide blanket purchase agreements for those initiatives, issued notices to the
procurement offices introducing the cost-savings initiatives, and provided
instructions on placing orders against the agreements. The BOP Procurement
Executive also told us that, as of December 2013, the BOP was conducting a spend
analysis of medical expenses to identify opportunities for greater cost savings.

       The largest area of spending in the BOP is for food. We discussed food
contracts with the BOP Procurement Executive and the Chief of the Field
Acquisitions Office. These officials told us that they do not believe that food is an
area with significant opportunity for savings under strategic sourcing. According to
one official, BOP institutions have a budget of less than $3 per day per inmate for
food. He told us the BOP provides three meals a day within this budgeted amount
and that he did not expect much savings could be achieved by having multiple
institutions consolidate purchases. This official also told us that earlier attempts at
combining food purchases had resulted in increased transportation costs and
conflicts with Federal Acquisition Regulation requirements to protect small
businesses in the local community around each facility.

      When asked, the Procurement Executive agreed that a comprehensive spend
analysis would help the BOP identify additional opportunities for cost savings. We
recommend that the BOP conduct an in-depth spend analysis to identify the
products and services for which strategic sourcing would provide the greatest
opportunity for cost savings.

      BOP Institutions’ Participation in BOP National Contracts and other Cost-
      Savings Initiatives

       We surveyed institution procurement officials to identify their level of
participation in the BOP national contracts and cost-savings initiatives. The results


                                           7

of our survey are shown in Exhibit 2. We found the institutions generally
participated in the national contracts even without a formal strategic sourcing
program.

            Exhibit 2: BOP Institutions’ Participation in BOP National
                      Contracts and Cost-Savings Initiatives
                                                         BOP Institutions12
                                                                                   Did not
                                                       Used with    Used other       need
                                           Used          other       sources      product or
          Product Description           exclusively     sources     exclusively    service
    Boiler Inspection Services           58 (62%)       8 (9%)        4 (4%)      23 (25%)
    PBX System Maintenance               50 (54%)       3 (3%)        2 (2%)      38 (41%)
    Digital Video Systems
    Maintenance                          43 (46%)       4 (4%)        2 (2%)      44 (47%)
    Barbed Wire Tape                     32 (34%)       1 (1%)          0         60 (65%)
    9mm Weapons                          51 (55%)       2 (2%)        1 (1%)      39 (42%)
    Ammunition                           76 (82%)      14 (15%)         0          3 (3%)
    Blood Glucose Testing Supplies       63 (68%)       3 (3%)        5 (5%)      22 (24%)
    HIV Test and Control Kits            38 (41%)       3 (3%)        8 (9%)      44 (47%)
    Breathing Apparatus                  72 (77%)       4 (4%)        1 (1%)      16 (17%)
    Dental Laboratory Services           71 (76%)       4 (4%)        1 (1%)      17 (18%)
    Magnetic Card Systems                76 (82%)       2 (2%)          0         15 (16%)
    Drug Abuse Treatment Journals        75 (81%)       4 (4%)        1 (1%)      13 (14%)
    Protective Stab Vests                69 (74%)       1 (1%)        2 (2%)      21 (23%)
    Teleradiology Services               89 (96%)       2 (2%)          0          2 (2%)
    Dosimeter Monitoring Services        86 (92%)       4 (4%)          0          3 (3%)
    Reverse Auctioneering Services       21 (23%)      48 (52%)      12 (13%)     12 (13%)
    Clothing, Textiles, & Other          81 (87%)      12 (13%)         0             0
    Solid Laundry Detergent              62 (67%)       8 (9%)        8 (9%)      15 (16%)
    Urine Test Cups and Laboratory
    Services                            93 (100%)          0            0             0
    Foreign Language Translation         86 (92%)       1 (1%)          0          6 (6%)
    Medication Dispensing
    Equipment                            62 (67%)       1 (1%)        2 (2%)      28 (30%)
    Line Conditioners                    30 (32%)       1 (1%)        2 (2%)      60 (65%)
    Pallet X-Ray Machines                47 (51%)       2 (2%)        3 (3%)      41 (44%)
    X-Ray Machine Maintenance            72 (77%)       2 (2%)        1 (1%)      18 (19%)
    Supplies                             66 (71%)      21 (23%)       1 (1%)       5 (5%)
    Mobile Radio Equipment               82 (88%)       2 (2%)          0          9 (10%)
    Delivery Service for BOP             88 (95%)       4 (4%)          0          1 (1%)
    Air Ambulance Services             61 (66%)     24 (26%)          1 (1%)       7 (8%)
    Natural Gas and Electricity        14 (15%)       6 (6%)         33 (35%)     40 (43%)
   Source: BOP records and results of OIG survey questionnaire



      12
           Percentages may not total 100 percent due to rounding.


                                                 8
        The level of participation in BOP national contracts varied depending on each
institution’s individual needs and local factors that affect the availability of sources.
For example, all 93 local procurement offices we surveyed used exclusively the BOP
national contract for urine test cups. In contrast, only 14 BOP procurement offices
used the GSA Natural Gas Acquisition Program as their only source of supply. The
Natural Gas Acquisition Program exists only in deregulated utility markets that
allow suppliers to compete for the supply of natural gas or electrical requirements
through the reverse auction process.13 Because the location of each institution
determines its ability to participate in the program based on the regulatory nature
of its respective utility markets, not all institutions are able to participate in this
program.

       The level of participation in BOP national contracts may also have varied
based on the institutions’ perceptions of whether participation was mandatory.
Officials in the BOP Procurement Executive’s Office told us that the nationwide
blanket purchase agreements are generally considered mandatory unless the field
notice specifically states that it is not mandatory or the local Contracting Officer
finds better pricing. We reviewed field notices for 32 initiatives and found the
following:14

    	 8 field notices stated or contained language that implied the 

       institutions were required to use the initiative (2 of those notices 

       included instructions for obtaining a waiver);


    	 2 field notices stated that use of the initiative was not mandatory; and

    	 22 field notices did not state whether use of the initiative was 

       mandatory or encouraged. 


       For example, the BOP identified an online reverse auction program as the
preferred source for purchasing toilet tissue, but left the decision whether to use
the initiative to the procurement officials at the institutions. In another example,
the BOP awarded a series of four blanket purchase agreements for air charter and
air ambulance services, but the field notices stated that use of these agreements is
encouraged, but not mandatory.

       We asked procurement staff at the 93 local procurement offices whether
participating in the national contracts and blanket purchase agreements was
mandatory or encouraged. The results of our testing are shown in Exhibit 3.




        13
           In a reverse auction the roles of buyer and seller are reversed so that the sellers compete
to obtain business from the buyer by offering progressively lower prices.
        14
           The 32 field notices we examined were for 2 Federal Strategic Sourcing Initiatives, 1
Department initiative, and 29 BOP cost-savings initiatives. The BOP did not issue a formal field notice
for the GSA Natural Gas Program because participation was determined by the utility market locations.


                                                   9

                 Exhibit 3: BOP Local Procurement Staff Views on Using 

                BOP National Contracts and Blanket Purchase Agreements

                                                Was the National Contract or Blanket Purchase
                                                    Agreement for the Product or Service
                                                         Mandatory or Encouraged?
                                                                                           Not
            Product or Service15                “Mandatory”        “Encouraged”        Applicable16
  Boiler Inspection Services                      65 (70%)            22 (24%)             6(6%)
  PBX System Maintenance                          59 (63%)            23 (25%)           11(12%)
  Digital Video Systems Maintenance               56 (60%)            28 (30%)            9(10%)
  Barbed Wire Tape                                52 (56%)            28 (30%)           13(14%)
  9mm Weapons                                     68 (73%)            16 (17%)            9(10%)
  Ammunition                                      79 (85%)            13 (14%)             1(1%)
  Blood Glucose Testing Supplies                  64 (69%)            22 (24%)             7(8%)
  HIV Test and Control Kits                       54 (58%)            27 (29%)           12(13%)
  Breathing Apparatus                             76 (82%)            14 (15%)             3(3%)
  Dental Laboratory Services                      75 (81%)            15 (16%)             3(3%)
  Magnetic Card Systems                           73 (78%)            17 (18%)             3(3%)
  Drug Abuse Treatment Journals                   71 (76%)            17 (18%)             5(5%)
  Protective Stab Vests                           78 (84%)            12 (13%)             3(3%)
  Teleradiology Services                          80 (86%)            13 (14%)               0
  Dosimeter Monitoring Services                   76 (82%)            16 (17%)             1(1%)
  Reverse Auctioneering Services                  17 (18%)            74 (80%)             2(2%)
  Clothing, Textiles, & Other                     89 (96%)             4 (4%)                0
  Solid Laundry Detergent                         88 (95%)             3 (3%)              2(2%)
  Urine Test Cups and Laboratory Services         86 (92%)             7 (8%)                0
  Foreign Language Translation                    80 (86%)            12 (13%)             1(1%)
  Medication Dispensing Equipment                 66 (71%)            19 (20%)             8(9%)
  Line Conditioners                               50 (54%)            25 (27%)           18(19%)
  Pallet X-Ray Machines                           59 (63%)            25 (27%)            9(10%)
  X-Ray Machine Maintenance                       73 (78%)            16 (17%)             4(4%)
  Supplies                                        74 (80%)            18 (19%)             1(1%)
  Mobile Radio Equipment                          77 (83%)            10 (11%)             6(6%)
  Delivery Service for BOP                        80 (86%)            12 (13%)             1(1%)
  Air Ambulance Services                      46 (49%)           47 (51%)                    0
  Natural Gas Acquisition Program             18 (19%)           61 (66%)                14(15%)
 Source: BOP procurement staff responses to the OIG questionnaire

     Even though most field notices did not explicitly state that usage was
mandatory, and those that did also provided for waivers, BOP headquarters officials

        15
           For products and services shown in italics, field notices stated or contained language that
implied the institutions were required to use the national contract or blanket purchase agreement.
        16
           Institutions that reported no need for the product or service did not provide a response to
our survey question regarding mandatory use of the national contract.


                                                  10

told us they were confident that procurement staff at the institutions understood
that they were required to use these cost-savings initiatives unless they had been
notified otherwise. However, we found that BOP procurement staff did not all share
a common understanding of the BOP’s expectations for using the national contracts
and blanket purchase agreements.

       For example, the field notice for BOP’s national contract for boiler inspection
services indicated that the institutions were required to use the contract, but 28 of
the 93 local procurement staff we surveyed believed that using this contract was
not mandatory. Conversely, the BOP did not require the institutions to use the
national contract for dental laboratory services, but 75 of the 93 local procurement
staff believed that using this contract was mandatory.

        We therefore concluded that the BOP did not clearly communicate that using
the BOP national initiatives was mandatory unless the institutions had a valid
reason for not doing so. We recommend that the BOP clearly identify and explicitly
communicate to BOP procurement staff when they must use existing contracts and
initiatives and the circumstances under which they may procure the products and
services through other sources.

Measuring and Reporting Participation In and Cost Savings From Strategic
Sourcing

        We asked the BOP how it measured participation in cost-savings initiatives
and national contracts, and any resulting cost savings. The Procurement Executive
told us that there was no requirement to track and report participation in the
initiatives and national contracts, as the Department stopped asking the BOP to
submit cost-savings reports and the OMB requirement to report cost savings has
expired. However, the BOP Field Acquisition Office periodically reviews the
institutions’ procurement practices using review guidelines established by the BOP
headquarters Program Review Division. Although use of cost-savings initiatives and
national contracts is not part of the program review checklist, reviewers may
include consideration of participation in the cost-savings initiatives and national
contracts as part of the review process.17 Despite these efforts, we found that the
BOP has not established a process for measuring or reporting participation in, and
savings resulting from, national contracts and other cost-savings initiatives. We
recommend that the BOP establish performance measures and reporting
requirements for cost-savings initiatives.

       To determine whether the BOP could demonstrate cost savings from strategic
sourcing, we interviewed BOP officials and reviewed cost-savings reports. From
October 1, 2010, through March 31, 2013, BOP institutions reported saving $1.3
million on various products and services through participation in BOP national
contracts, negotiating discounts with local suppliers, and using on-line auctions.



       17
          Our assessment of the BOP’s review process is discussed below, in the report section titled
“The BOP’s Program Review Process.”


                                                 11

Included in this reported savings is the value of excess property items that BOP
institutions obtained from other federal agencies or BOP institutions.

      Although there is currently no requirement for the institutions to report cost
savings from participating in the Federal Strategic Sourcing Initiative or BOP
national contracts, the Department requires BOP to prepare quarterly cost-savings
reports as part of the Department-wide initiative for the acquisition and
maintenance of copiers and printers. In addition, the BOP prepared cost-savings
estimates for some products and services in response to our inquiries.

   	 Copiers and Printers - The BOP acquired copiers and printers through the use
      of a Department contract. We reviewed quarterly savings reports showing
      that 40 institutions saved about $551,000 in copier acquisition and
      maintenance costs during FYs 2011 through 2013. However, we could not
      verify that the reports were accurate because the BOP did not require the
      institutions to explain the savings or submit documents to support the
      amounts saved.

   	 Natural Gas and Electricity – The BOP projected that 36 BOP institutions
      would save about $34 million by participating in an online reverse auction for
      natural gas and electricity. The BOP calculated projected annual savings as
      the difference between current and previous contract prices projected over
      the life of the contracts, which ranged from 1 to 5 years.

   	 Air Charter and Air Ambulance Services – The BOP used data from the
      Federal Procurement Data System-Next Generation to prepare a report of
      total costs for air charter services. The report showed that the average cost
      per air charter and air ambulance trip fell from $19,497 per trip in FY 2008 to
      $14,806 per trip in the first half of FY 2013. The reported savings were
      based on the average cost per trip because the data system did not include
      the data needed to determine average cost per mile, which would have been
      a better measure of savings. Consequently, we could not determine whether
      the savings resulted from using the strategic sourcing agreement or because
      the trips were of shorter distance or duration.

      The BOP also provided cost-savings reports for other products and services,
but the savings calculations were based on the difference between an Independent
Government Estimate price and the price awarded in the BOP contract. A BOP
procurement official told us that the independent estimate frequently references the
GSA’s Federal Supply Schedule price. However, the BOP can obtain a discount from
the GSA Federal Supply Schedule price without using cost-savings initiatives or
consolidating purchases.18 Consequently, the GSA Federal Supply Schedule price
may not be the appropriate benchmark for measuring savings. The BOP
Procurement Executive agreed that the GSA Federal Supply Schedule price may not


        18
           GSA Federal Supply Schedule prices are considered to be fair and reasonable; however, the
Federal Acquisition Regulation requires agencies to seek additional discounts when an order amount
exceeds certain thresholds.


                                                12

be the best benchmark price to evaluate savings. We believe a more appropriate
benchmark price for calculating savings would be the most recent price the BOP
paid for a product or service.

      We believe that the BOP could achieve significantly greater cost savings by
implementing a formal strategic sourcing program that includes cost savings
reports. These reports would provide the BOP with the management information it
needs to measure cost savings from strategic sourcing efforts and achieve further
reductions in procurement costs. We recommend that the BOP implement a
process for reporting cost savings from strategic sourcing and use those reports as
a management tool to continuously reduce costs. To ensure that cost-savings
reports are useful, the BOP should identify an appropriate and consistent
methodology for determining benchmark prices. Without a consistent method for
determining cost savings, the BOP cannot be assured of the reliability of reported
savings.

The BOP’s Program Review Process

       The BOP Program Review Division conducts internal assessments on BOP
operations including procurement activities. A program review official told us that
review guidelines are based on regulations, BOP policies, and other risks or areas of
concern identified by BOP management. The Field Acquisition Office and the
institutions also use these guidelines to conduct regional reviews and self-
assessments.

       Program review officials provided us a copy of the guideline checklist for
procurement reviews. We reviewed the checklist and found no reference to
strategic sourcing as an area of interest in the review. Reviews are conducted
based on the guidelines but may expand into other areas of guidance or
requirements such as strategic sourcing and participation in national contracts,
depending on the individual reviewer.

       We obtained copies of program review reports from fiscal years 2010 and
2011 and reviewed the reports for indications that strategic sourcing was included
in the review. We found the reviews followed the checklists provided by the
Program Review Division and we found no indication that strategic sourcing was an
area reviewed.

        The review process based on the guideline checklist does not provide
effective oversight of local procurement office use of national contracts and cost-
savings initiatives. The BOP has no formal strategic sourcing program or reporting
requirements to ensure participation in the national contracts and cost-savings
initiatives. Also, the program review checklist does not include any reference to
these initiatives. We believe an effective review of procurement should include an
emphasis on the use of strategic sourcing and local procurement office participation
in national contracts and cost-savings initiatives. The Procurement Executive
agreed that strategic sourcing should be incorporated into the BOP program review
process.


                                         13

Conclusion

       The BOP has not fully adopted a strategic sourcing approach to
procurement. Its purchasing operations are largely de-centralized with institutions
making procurement decisions locally. The BOP encourages the institutions to
participate in government-wide and Department strategic sourcing initiatives and
BOP national contracts and blanket purchase agreements, but it does not generally
make the use of these cost-savings efforts mandatory. The BOP also does not have
a process to review and analyze its expenditures to identify the goods and services
that present the best strategic sourcing opportunities; does not track participation
in government-wide, Department, or BOP cost-savings initiatives; or require
documentation of cost savings achieved through participation. As a result, the BOP
is not fully leveraging its buying power to obtain the most advantageous terms.

       According to a Government Accountability Office report, organizational
leadership and effective metrics are important factors in implementing strategic
sourcing. The BOP has not established performance measures to identify
participation or savings, or a reporting mechanism for collecting savings data. The
BOP has not established clear guidance on measuring savings that are, or could be,
achieved through strategic sourcing efforts. Without an established program or
centralized management of strategic sourcing, there are no central metrics in use to
record participation or savings.

Recommendations

We recommend that the BOP:

   1. Implement a strategic sourcing program to:

      	 continuously analyze its spending to identify and prioritize commodities
         with the greatest potential for cost savings through strategic sourcing;

      	 identify appropriate benchmark prices for those commodities; determine
         whether those commodities can be obtained at a lower cost by
         participating in existing government-wide, agency, or BOP national
         contracts and blanket purchase agreements; and consider participating in
         those before initiating any new contracts; and

      	 establish performance measures for strategic sourcing activities, including
         a process to collect cost data and report savings using appropriate “cost
         per unit” information.

   2. Identify and communicate to BOP procurement staff when they must use
      existing contracts and initiatives and the circumstances under which they
      may procure the products and services through other sources.




                                        14

3. Include in its internal program review process steps to verify whether BOP
   procurement offices are using strategic sourcing concepts in the acquisition
   of goods and services.




                                     15

                 STATEMENT ON INTERNAL CONTROLS

        As required by the Government Auditing Standards, we tested, as
appropriate, internal controls significant within the context of our audit objective. A
deficiency in an internal control exists when the design or operation of a control
does not allow management or employees, in the normal course of performing their
assigned functions, to timely prevent or detect: (1) impairments to the
effectiveness and efficiency of operations, (2) misstatements in financial or
performance information, or (3) violations of laws and regulations. Our assessment
of the BOP’s internal controls was not made for the purpose of providing assurance
on its internal control structure as a whole. The BOP’s management is responsible
for the establishment and maintenance of internal controls.

        We did not identify any deficiencies in the BOP’s internal controls that are
significant within the context of the audit objective that would adversely affect the
BOP’s ability to properly purchase goods and services.

       Because we are not expressing an opinion on the BOP’s internal control
structure as a whole, this statement is intended solely for the information and use
of the auditee. This restriction is not intended to limit the distribution of this
report, which is a matter of public record.




                                          16

                   STATEMENT ON COMPLIANCE WITH 

                       LAWS AND REGULATIONS 


       As required by the Government Auditing Standards, we examined the BOP’s
processes, controls, and records to obtain reasonable assurance that the BOP
complied with laws and regulations that, if not complied with, could have a material
effect on the BOP’s ability to properly purchase goods and services. Compliance
with laws and regulations applicable to the BOP’s procurement activities is the
responsibility of BOP management. An audit includes examining, on a test basis,
evidence about compliance with laws and regulations. The specific laws and
regulations we reviewed included the relevant portions of the Federal Acquisition
Regulation and the Justice Acquisition Regulation.

        We did not identify any instances of noncompliance. With respect to those
activities not tested, nothing came to our attention that caused us to believe that
the BOP was not in compliance with the laws and regulations cited above.




                                         17

                                                                      APPENDIX I

         AUDIT OBJECTIVES, SCOPE, AND METHODOLOGY

        The objectives of this audit were to: (1) assess the BOP’s efforts to
implement strategic sourcing and the Federal Strategic Sourcing Initiative, and
(2) determine whether these efforts have reduced the BOP’s costs. We conducted
this performance audit in accordance with generally accepted government auditing
standards. Those standards require that we plan and perform the audit to obtain
sufficient, appropriate evidence to provide a reasonable basis for our findings and
conclusions based on our audit objectives. We believe that the evidence obtained
provides a reasonable basis for our findings and conclusions based on our audit
objectives. Our audit concentrated on, but was not limited to, the period from
October 1, 2010 through March 31, 2013.

      We conducted fieldwork at BOP headquarters and at the United States
Penitentiary, Atlanta, Georgia. We interviewed the Chief Procurement Official at the
BOP’s Field Acquisition Office. In addition, we obtained data from 93 local
procurement offices through the use of a survey questionnaire discussed below.

      To answer the audit objectives, we reviewed OMB, DOJ, and BOP guidance
on the use of strategic sourcing in procurement activities. In addition, we:

      	 Interviewed BOP procurement officials about policies and procedures for
         the use of strategic sourcing.

      	 Interviewed BOP Program Review Division staff about procedures for
         inspecting the procurement activity in division and district offices, the
         types of inspections, and how often inspections are conducted. We
         assessed whether the BOP’s program review process for monitoring
         procurement in the institutions is capable of detecting deficiencies in the
         application of strategic sourcing in procurement through the use of GSA’s
         Federal Strategic Sourcing Initiative, Department initiatives, or BOP
         national contracts.

      	 Evaluated the BOP’s process for communicating the availability of blanket
         purchase agreements and national contracts.

      	 Evaluated the BOP’s process for verifying participation in strategic
         sourcing initiatives.

      	 Surveyed 93 local procurement offices through a questionnaire to
         determine awareness of available strategic sourcing initiatives,
         participation in strategic sourcing initiatives, and reporting of cost savings
         achieved through strategic sourcing activities. We received a response
         from each office.




                                          18

                                                                              APPENDIX II

    BOP RESPONSE TO THE DRAFT AUDIT REPORT


                                                 u.s. Department of Justice
                                                 Federal Bureau of Prisons




 Office otthe Director                           Washington, DC 20534



                                                March 18, 2014




MEMORANDUM FOR RAYMOND J. BEAUDET
               ASSISTANT INSPECTOR GENERAL
                 FOR AUDIT
               OFFICE OF THE INSPECTOR GENEP~L




FROM:
                         Director
                         Federal Bureau of Prisons

SUBJECT:                 Response to the Office of Inspector General's (OIG)
                         DRAFT Report:  Audit of the Federal Bureau of Prisons
                         Efforts to Improve Acquisition through Strategic
                         Sourcing

The Bureau of Prisons (BOP) appreciates the opportunity to respond
to the open recommendations from the draft report entitled: Audit
of the Federal Bureau of Prisons' Efforts to Improve Acquisition
through Strategic Sourcing.

Please find the Bureau's response to the recommendations below:

Recommendation 1:   Implement a strategic sourcing program to:
continuously analyze its spending to identify and prioritize
commodities with the greatest potential for cost savings through
strategic sourcing; identify appropriate benchmark prices for those
commodities; determine whether those commodities can be obtained at
a lower cost by participating in existing government-wide, agency,
or BOP national contracts and blanket purchase agreements; and




                                          19

consider participating in those before ini tiating any new contracts i
and establish performance measures for strategi c sourcing
activities, including a process to collect cost data and report
savings using appropriate "cost per unit" information.

BOP's Initial Response:     The Bureau concurs with the recommendation.
To establish and implement this program, one that will include each
of the recommendations and metrics for compliance, it wi ll take a
considerable amount of time. We have established a milestone to
implement our program no later than the 2nd quarter of FY 2015.

Recommendation 2 : Identify and communicate to BOP procurement staff
when they must use existing contracts and initiatives and the
circumstances under which they may procure the products and services
through other sources.

BOP's Initial Response:     The Bureau concurs with the recommendation.
Recommendation 2 will be implemented no later than June 2014. This
will be accomplished through the issuance of future Field Notices
for each new national contract and redesigning the BOP's intrane t
to clearly identify mandatory versus nonmandatory for new and current
national contract s .

Recommendation 3: Include in its internal program review process
steps to verify whether BOP procurement offices are using strategic
sourcing concepts in the acquisition of goods and services.

BOP ' s Initial Response:   The Bureau concurs with the recommendation.
Once a Strategic Sourcing Plan has been established and implemented,
a management assessment wil l be conducted to revise the relevant
program review guidelines as appropriate.

If you have any questions regarding this response, please contact
Sara M. Revell, Assistant Director, Program Review Division, at
(202)   353-2302.




                                    2




                                    20 

                                                                  APPENDIX III

                 OFFICE OF THE INSPECTOR GENERAL

                ANALYSIS AND SUMMARY OF ACTIONS 

                  NECESSARY TO CLOSE THE REPORT



       The OIG provided a draft of this audit report to the Federal Bureau of Prisons
(BOP). The BOP’s response is incorporated in Appendix II of this final report. The
following provides the OIG analysis of the response and summary of actions
necessary to close the report.

Recommendation:

   1. Implement a strategic sourcing program to:

      	 continuously analyze its spending to identify and prioritize
         commodities with the greatest potential for cost savings through
         strategic sourcing;

      	 identify appropriate benchmark prices for those commodities;
         determine whether those commodities can be obtained at a lower
         cost by participating in existing government-wide, agency, or BOP
         national contracts and blanket purchase agreements; and consider
         participating in those before initiating any new contracts; and

      	 establish performance measures for strategic sourcing activities,
         including a process to collect cost data and report savings using
         appropriate “cost per unit” information.

      Resolved. The BOP concurred with our recommendation. The BOP stated in
      its response that it will take considerable time to establish and implement
      this program and it has established a milestone to implement a strategic
      sourcing program no later than the 2nd quarter of FY 2015.

      This recommendation can be closed when we receive documentation showing
      that the BOP has established and implemented a strategic sourcing program
      including provisions as described in the recommendation.

   2. Identify and communicate to BOP procurement staff when they must
      use existing contracts and initiatives and the circumstances under
      which they may procure the products and services through other
      sources.

      Resolved. The BOP concurred with our recommendation. The BOP stated in
      its response that the procedures will be implemented no later than June
      2014. This will be accomplished through the issuance of future Field Notices


                                         21

  for each new national contract and redesigning the BOP's intranet to clearly
  identify mandatory versus non-mandatory status for new and current
  national contracts.

  This recommendation can be closed when we receive documentation of BOP’s
  redesigned intranet with clear identification of the mandatory or non-
  mandatory status for new and current national contracts.

3. Include in its internal program review process steps to verify
   whether BOP procurement offices are using strategic sourcing
   concepts in the acquisition of goods and services.

  Resolved. The BOP concurred with our recommendation. The BOP stated in
  its response that once a Strategic Sourcing Plan has been established and
  implemented, a management assessment will be conducted to revise the
  relevant program review guidelines as appropriate.

  This recommendation can be closed when we receive documentation showing
  the BOP has completed a management assessment and developed revised
  program review guidelines to address the strategic sourcing plan.




                                    22

